   Federal Election Commission

    Office of Inspector General




             Final Report

Review of Outstanding Recommendations
            as of June 2014

              July 2014


      Assignment No. OIG-14-07
                        Office of Inspector General’s
                           Review of Outstanding
                      Recommendations as of June 2014

The Office of Inspector General (OIG) semiannually provides to the Commission the status of
outstanding recommendations. Since the December 2013 report was issued, we added the Audit
of the Federal Election Commission’s Office of Human Resources report (which was released in
July 2013) to the audit follow-up process because the recommendations have been outstanding
for more than six months. For this reporting period, we reviewed five audits and inspections that
had a total of 102 recommendations outstanding. The OIG was able to collectively close fifteen
(15) recommendations from three of the five audits and inspections. Three of the fifteen
recommendations that were closed this period were closed due to management’s decision to
accept the risk of not implementing corrective actions for outstanding recommendations in the
Audit of the Commission Property Management Controls report, see details on page 4.


                     Noteworthy Accomplishments
   •   The Office of Human Resources closed nine (9) of 26 audit recommendations from the
       Audit of the Federal Election Commission’s Office of Human Resources within the first
       six month follow-up period.


                                   OIG Concerns
   •   FEC needs to improve the accountability of management officials necessary to ensure
       compliance with all aspects of Directive 50: Audit Follow-up.

   •   FEC’s IT inventory records are consistently inaccurate to include the recently purchased
       iPhones for FEC staff.

   •   OIG is concerned with the lack of progress in addressing the outstanding
       recommendations for the Inspection of the FEC’s Disaster Recovery Plan and Continuity
       of Operations Plan report. Thirty recommendations were contained in the report, issued
       January 2013. Over eighteen months have passed and all thirty recommendations remain
       open. The lack of attention to these recommendations may put the agency at risk in the
       event of a local disaster.
Table Summary of Results
    The table below summarizes the progress made by FEC management during the past six
    months and the outstanding recommendations as of June 2014.




                                                                                            1
        Title & Report Date              Total Outstanding            Total Closed           Total Open
               of OIG                    Recommendations              and Verified             as of
         Audits/Inspection                as of December                by OIG               June 2014
                                                2013
    Audit of the Commission’s
    Property Management                            7                         5                    2
    Controls (3/2010)                                                        2

    2010 Follow-up Audit of
    Privacy and Data Protection                    30                        1                   29
    (3/2011)
    2010 Follow-up Audit of
    Procurement and Contract                       9                         0                    9
    Management (6/2011)
    Inspection of the FEC’s
    Disaster Recovery Plan and
    Continuity of Operations                       30                        0                   30
    Plans (1/2013)
    Audit of the FEC’s Office of                   26                        9                   17
    Human Resources (7/2013)
                                                                                                 87
                      Total Outstanding Recommendations




1
  “Total Open as of June 2014” column includes recommendations that management has disagreed with or has not
adequately implemented, and the OIG concludes that these recommendations are still ‘open’.
2
  Three (3) of the five (5) recommendations were closed based on management’s decision to accept the risk of not
implementing corrective action.

Office of Inspector General’s Review of Outstanding Recommendations as of June 2014                   2|P a g e
Audit Follow-up Meetings/Communications

Closed Audits
The Office of Inspector General did not close any audits for this review period.

Open Audits
    A. Audit of the Commission’s Property Management Controls

        The Office of Inspector General (OIG) issued a memorandum to the Chief Information
        Officer (CIO) on February 10, 2014 (See Appendix A). The memorandum expressed the
        OIG’s concern regarding the lack of progress in implementing the remaining seven open
        recommendations for the Audit of the FEC’s Property Management Controls. The OIG’s
        memo identified the potential risks to the agency and requested a written statement from
        the CIO accepting the risk of the outstanding recommendations in order for the OIG to
        officially close the recommendations.

        In a memorandum dated March 4, 2014 (See Appendix B), the CIO provided a response
        to the OIG regarding the open recommendations. The OIG reviewed the responses and
        determined that:

            •   Three recommendations (1h, 3, 3e) will be closed based on management
                accepting the risk of not implementing corrective action to adequately address the
                recommendations
                    o Recommendation 1h: Document the ITD re-authorization process of PCD
                       [personal communication device] users in ITD’s Policy 58-4.4
                    o Recommendation 3: ITD should implement a form and process such as
                       NIST Sample Sanitization Validation form, to record sanitization (wiping)
                       of devices, disposal and/or destruction, as appropriate
                    o Recommendation 3e: Segregate the following program functions among
                       three or more ITD staff: purchasing/ordering and recording assets;
                       authorization for purchases, including devices received free under upgrade
                       promotion; receipt. storage, and distributing of assets; and destruction or
                       disposal of surplus PCDs;

            •   Two recommendations (1k & 2g) will be closed due to recent changes (January
                2014) to the agency’s policy to include details on personal use using the new
                iPhone devices and the required training provided to FEC staff when issued a
                device
                   o Recommendation Ik: Provide the policies and procedures for the use of
                       Blackberry devices to all users when issuing the Blackberry


Office of Inspector General’s Review of Outstanding Recommendations as of June 2014     3|P a g e
                        o Recommendation 2g: Management should educate Blackberry users of all
                          features that incur additional cost to the agency, such as: roaming charges
                          that result when employees place calls outside the AT&T service areas;
                          texting; directory assistance; unauthorized software, and voice use over
                          the pooled plan limits; and

               •    Two recommendations (2a &2f) required follow-up review as the CIO noted that
                    corrective action had been taken and no further actions were necessary, and
                    requested that the recommendations be closed
                        o Recommendation 2a: All unassigned Blackberry devices should be
                            suspended or service should be terminated if the device can not be
                            immediately transferred to another user (no active spares kept in ITD).
                        o Recommendation 2f: Blackberry user information should be kept up to
                            date and adjusted in a timely manner on the ITD master Blackberry listing
                            and the AT&T Premier website for employee separations and new
                            assignment of devices.

           The OIG conducted our follow-up review on recommendations 2a & 2f and found that
           both recommendations were not adequately implemented. To review the detailed results
           of the follow-up review for recommendations 2a & 2f, please see the Audit of the FEC’s
           Property Management Controls Testing Results section of this report of page 9.

       B. 2010 Follow-up Audit of Privacy and Data Protection

           For the 2010 Follow-up Audit of Privacy and Data Protection, the OIG’s December 2013
           report identified 30 open recommendations. At the start of this review period, the OIG
           contacted the Co-Chief Privacy Officers to identify if any corrective actions had been
           implemented to address the thirty (30) outstanding recommendations. The OIG received
           confirmation from the Co-Chief Privacy Officers that no progress had been made.

           In May 2014, an updated CAP was submitted to the Commissioners noting that one
           recommendation, 6g, had been implemented. Recommendation 6g requires management
           to “Implement an alternative to assigning a generic laptop encryption passphrase to
           contractors so that every contractor has a unique self selected passphrase”. In order to
           verify implementation of this recommendation, the OIG inquired with seven (7) 3 FEC
           contractors that they have a self selected passphrase for logging on to their FEC issued
           laptops. Six (6) of the seven contractors verified that they created their own passphrase.
           For the one contractor, hired in 2014, the OIG verified that the contractor was using an
           FEC issued laptop for official FEC business, but their laptop was not encrypted, which
           would not require them to input a passphrase for accessing the FEC’s laptop. Based on
           the six contractors with encryption, the OIG closed recommendation 6g.
3
    Three of the seven contractors work for the OIG on the FEC’s annual financial statement audit.

Office of Inspector General’s Review of Outstanding Recommendations as of June 2014                  4|P a g e
        However, FEC’s policy is that all laptops issued to FEC employees and contractors are
        to be encrypted, which is also an outstanding recommendation
        (6a: “…require all mobile devices to be encrypted”) for this            All laptops issued to
                                                                                contractors have not
        audit. Since the release of this audit report in 2010, management
                                                                                been encrypted and
        has failed to provide the documentation necessary to evidence
                                                                                appropriate
        that ITD has the capabilities to verify that every laptop issued to
                                                                                documentation on
        an FEC employee or contractor has been encrypted. During the
                                                                                encryption of FEC
        OIG’s follow-up review in December 2011, the Deputy CIO of
                                                                                laptops has yet to be
        Operations sent an email stating that all laptops are encrypted
                                                                                provided.
        and considered the email to be sufficient evidence to close the
        recommendation. The OIG does not consider a statement
        contained in an email adequate evidence or evidence of appropriate controls and
        documentation being in place. In addition, management’s CAPs sent to the Commission
        since December 2011, to include the most recent CAP in May 2014, identified
        recommendation 6a as closed. Based on this follow-up review regarding the one
        contractor recently hired without an encrypted laptop and ITD’s inability to provide
        sufficient evidence since 2010 that all laptops are encrypted illustrates that FEC is not
        following their policy and that recommendation 6a will remain open.

    C. 2010 Follow-up of Procurement and Contract Management

        The December 2013 Review of Outstanding Recommendations report noted eight (8) of
        17 audit recommendations from the 2010 Follow-up Audit of Procurement and Contract
        Management had been closed during that reporting period. Per discussion with the Office
        of the Chief Financial Officer (OCFO) in May 2014, no additional progress has been
        made related to the remaining 9 outstanding audit recommendations. OIG notes that since
        the last follow-up work performed, the procurement office lost one full time employee
        (FTE) and has a new Procurement Officer. The OIG did not perform any follow-up work
        during the reporting period ending June 30, 2014.

    D. Inspection of the FEC’s Disaster Recovery Plan and Continuity of Operations Plans

        The Inspection of the FEC’s Disaster Recovery Plan and Continuity of Operations Plans
        (COOP Inspection) was released in January 2013. The OIG contacted the Deputy Chief
        Information Officer (CIO) of Operations to provide a status of the open
        recommendations. The Deputy CIO notified the OIG that there has been no change to the
        status of the thirty (30) outstanding recommendations.

        The OIG reviewed management’s May 2014 corrective action plan submitted to the
        Commission for the COOP Inspection and management stated that “Due dates have been
        revised to coincide with the COOP plan update this year.” However, based on
        outstanding recommendations related to the COOP from the FEC’s annual financial
Office of Inspector General’s Review of Outstanding Recommendations as of June 2014        5|P a g e
        statement audit, management currently does not have a project plan 4 in place to address
        the COOP findings and their updated due date of October 2014 for implementing
        corrective actions for the CAP is not reasonable and should be updated once a plan has
        been developed.

        The OIG is concerned with the lack of progress and commitment by the Information
        Technology Division to address the numerous problems found during the COOP
        Inspection. In FY 2008, the agency procured contractors to develop the agency’s COOPs
        and DRP. The OIG is aware that ITD is planning to procure contract services for a
        second time because ITD did not follow through with conducting proper testing and
        monitoring of the plans when they were completed by the contractors in FY 2010.

        The agency spent $277,506 from 2008 to 2010 on ITD’s COOP project which was
        never fully implemented. The agency is again spending funds to procure almost
        identical contract services while procuring more computer hardware to replace the
        previous Netbooks that were used for contingency planning.
        Although ITD is spending money towards developing the agency’s         FEC is at risk for
                                                                               spending contract
        COOP, ITD does not have a project plan in place to ensure key
                                                                               money on COOP
        tasks and milestones to implement corrective actions for findings
                                                                               for the 2nd time
        identified in the COOP Inspection will be achieved. In addition,
                                                                               and not
        without a project plan in place, management cannot properly
                                                                               completing the
        manage the time, resources, and project cost to fully execute the
                                                                               project objective.
        COOP project. The OIG strongly believes without a proper COOP
        project plan, the agency is at risk for spending money on an IT
        project that will fail to achieve the project objective as in FY 2010.

        Currently, the FEC is not in compliance with a required Presidential Directive: Homeland
        Security Presidential Directive (HSPD-20), section 19(d) 5. In the event of a localized
        emergency or disaster to the FEC building (i.e. fire,
                                                                         FEC would be
        flooding, etc.) the agency does not have an adequate plan in
                                                                         challenged in
        place or the necessary tools to ensure the agency can
                                                                         administering and
        continue to carry out its mission.                               enforcing FECA in
                                                                                  the event of a local
                                                                                  disaster.



4
  Project Plan: a documented plan used to guide both project execution and project control; documents how and
when a project's objectives are to be achieved by showing the major deliverables, milestones, activities
and resources required on the project.
5
  “Heads of executive departments and agencies shall execute their respective department or agency COOP plans
in response to a localized emergency and shall: (d) “Plan, conduct and support annual tests and training…”

Office of Inspector General’s Review of Outstanding Recommendations as of June 2014                6|P a g e
    E. Audit of the FEC’s Office of Human Resources

        The Audit of the Federal Election Commission’s Office of Human Resources (OHR)
        report was issued in July 2013. The OHR audit report identified 26 audit
        recommendations to improve OHR operations. In March 2014, the OIG followed-up with
        the Acting Director of Human Resources to discuss corrective actions taken to address
        the recommendations. Then, the OIG reviewed the updated OHR CAP and requested
        supporting documentation required to close certain recommendations. Based on the
        OIG’s review of documentation to support corrective actions by OHR, the OIG closed
        nine (9) of the 26 outstanding recommendations.

         In June 2014, the OIG followed up with one of the OHR follow-up officials (OHR
        Supervisor) to determine if any additional progress has been made on OHR’s outstanding
        audit recommendations. OIG was informed that due to the OHR work load, staff
        shortage, and the hiring of the new Director of OHR, no additional progress has been
        made since March 2014. Therefore, no additional follow-up work was performed by
        OIG. As of June 30, 2014 the OHR audit has 17 open audit recommendations.




Office of Inspector General’s Review of Outstanding Recommendations as of June 2014   7|P a g e
Audit of the FEC’s Property Management Controls Testing
Results
The Chief Information Officer’s (CIO) March 4, 2014 memorandum states that management
now has direct access to the AT&T system to ensure changes to inventory records are accurate
and made in a timely manner. Based on the OIG’s review results, the inventory list for the new
iPhones is not accurate and the AT&T system is still not properly managed to        FEC IT inventory
reflect an accurate record of assigned iPhones, even with the new direct access     records are
permitted to management. The lack of adequate internal controls found during        consistently
the OIG’s 2010 audit for the Blackberry devices still exists as a result of the     incomplete and/or
OIG’s recent review of iPhone records. The risk of fraud is heightened as the       contain inaccurate
agency has moved to the new iPhone devices that have a greater market value         data.
than the prior Blackberry devices. It is concerning that the inventory list for
iPhones is not accurate as this is a relatively new acquisition. The OIG has expressed concerns
over the lack of appropriate inventory control in ITD for many years.

Detailed Testing Results

To verify corrective action for recommendations 2a & 2f from the Audit of the Commission’s
Property Management Controls, the OIG reviewed ITD’s master inventory list provided on April
24, 2014 by the Deputy CIO of Operations and FEC’s AT&T Wireless phone bill for billing
cycles February 28 – March 27, 2014 & March 28, 2014 – April 27, 2015. The OIG reviewed
the documentation for accuracy of phone assignments between the master inventory list and the
AT&T bill information to ensure corrective action has been adequately implemented to support
the CIO’s response that “Spares are…accounted for, properly tracked and managed…PCDs
record keeping has never been in any risk of fraud…any risk attached to the audit finding has
been mitigated…”

    •   iPhone #XXX-3281 is assigned as a phone in storage on the inventory list; however, the
        AT&T bill has the device listed as assigned to an Enforcement Division attorney.


    •   iPhone #XXX-4874 is assigned to an Administrative Law Division attorney on the
        inventory list; however, the AT&T bill has the device listed as assigned to an
        Enforcement Division attorney.
            o According to the inventory list and the AT&T bill, the Enforcement Division
               attorney is assigned two iPhones (#XXX-2790 and #XXX-4874).

    •   iPhone #XXX-0439 is assigned as a iPhone in storage on the inventory list; however, the
        AT&T bill shows the iPhone assigned to an Executive Assistant in a Commission Office.



Office of Inspector General’s Review of Outstanding Recommendations as of June 2014      8|P a g e
      •    iPhone #XXX-4659 is assigned to a Program Support Officer on the inventory list;
           however, the AT&T bill shows the iPhone assigned to an Enforcement Division
           attorney.


      •    iPhone #XXX-8324 is assigned twice to a Reports Analysis Division employee and an
           Office of Administrative Review employee on the inventory list; however, the AT&T bill
           shows the iPhone assigned to the Office of Administrative Review employee.
              o iPhone #XXX-6690 is assigned to the Reports Analysis Division employee on the
                  AT&T bill; this iPhone is not listed on the inventory list.


      •    iPhone #XXX-2318 is assigned to a Litigation Division attorney on the inventory list;
           however, the AT&T bill has the device assigned to a Policy Division attorney 6.

      •    iPhone #XXX-0890 is assigned as the “Federal Election Commission” and not an
           individual employee on the AT&T bill; however, the inventory list shows the iPhone
           assigned to a Special Counsel attorney in the Commission Office.

      •    iPhone #XXX-6447 is assigned to a former 7 Executive Assistant in a Commission Office
           on the AT&T bill; however, the inventory list does not have this iPhone listed.




6              th
    As of June 8 , 2014 employee is on temporary assignment as an Executive Assistant in a Commission Office.
7
    Employee separated from the FEC on March 22, 2014.

Office of Inspector General’s Review of Outstanding Recommendations as of June 2014                    9|P a g e
OIG Concerns
FEC needs to improve the accountability of management officials necessary to ensure
compliance with all aspects of Directive 50: Audit Follow-up. It is essential that the
Commission not only requires management to report on semi-annual basis the status of
outstanding recommendations, but also develops a process to ensure the Audit Follow-up
Officials are being held accountable for implementing outstanding recommendations in a timely
manner that are beneficial to the agency’s’ mission and will improve agency programs. The
Office of Management and Budget (OMB) Circular No. A-50 states:

         “Agency heads are responsible for (2) Assuring that management officials throughout
        the agency understand the value of the audit process and are responsive to audit
        recommendations.

Without accountability necessary to ensure corrective actions are taken by management, the
mission of the agency is consistently operating under weaker controls that can increase cost,
expose the agency to risks, and increase the potential of fraud waste, and abuse to agency
programs.

In addition, the OIG is concerned with the lack of progress in addressing the outstanding
recommendations for the Inspection of the FEC’s Disaster Recovery Plan and Continuity of
Operations Plan. The original 30 recommendations have been outstanding since the release date
of the report, January 2013.

Report Review
 This report provides the Commission and management the results of the Office of Inspector
 General’s (OIG) review of outstanding OIG recommendations as of June 2014.

 As required by the Inspector General Act of 1978, as amended, the Office of Inspector
 General (OIG) is responsible for conducting audits of the Federal Election
 Commission’s (FEC) programs and operations. In addition to conducting and
 supervising audits, the OIG also has the responsibility to conduct audit follow-ups to
 ensure that management has effectively implemented OIG recommendations. Audit
 follow-up, to include the timely implementation of audit recommendations by FEC
 management, is required by Office of Management and Budget Circular A-50, Audit
 Follow- up, as revised, and FEC Directive 50: Audit Follow-up.

 In order to work effectively with FEC management in adhering to FEC Directive 50,
 and to ensure continuous monitoring and adequate and timely audit resolution, the
 OIG communicates with management at least semiannually to discuss the status of
 outstanding OIG recommendations. If management has implemented any corrective
 actions, the OIG schedules a meeting with management to discuss the implementation
 of the corrective action(s), and the OIG then reviews evidence of the corrective action
 (i.e. new/updated policies, procedures, and processes to improve internal controls).
Office of Inspector General’s Review of Outstanding Recommendations as of June 2014    10 | P a g e
 Based on management’s availability, the OIG strives to schedule these meetings to provide
 management with the results of our review prior to management’s reporting deadlines to
 the Commission in May and November. These meetings can provide management with
 timely OIG feedback for their semiannual reports to the Commission and enables the OIG
 to keep abreast of management’s progress. The semiannual meetings are also intended to
 assist the audit follow-up official in following provisions 4 through 6 of Directive 50,
 which are listed as follows:

         “(4) Respond in a timely manner to all audit reports;
          (5) Engage in a good faith effort to resolve all disagreements; and
          (6) Produce semi-annual reports that are submitted to the agency head.”

 FEC management is required by FEC Directive 50 to provide semiannual status reports
 (May and November) to the Commission of their progress concerning outstanding OIG
 recommendations. The official status (open/closed) of OIG recommendations is
 determined by the OIG once the OIG has verified that management has adequately
 implemented the corrective actions. The Inspector General can also make a decision to
 close recommendations or seek resolution from the Commission for recommendations
 where the OIG and management disagree. Lastly, the number of outstanding
 recommendations is reported to the Commission and Congress in the OIG’s Semiannual
 Reports to Congress.

Background
 At the conclusion of each OIG audit and inspection, it is management’s responsibility to
 develop a corrective action plan (CAP). The CAP identifies the plan management has
 developed to address the OIG’s findings and recommendations. The CAP should detail the
 following:

     1. assignment of Audit Follow-up Official (AFO), who is responsible for
        overseeing the corrective action;
     2. OIG finding(s);
     3. OIG recommendation(s);
     4. detailed corrective action to implement the OIG’s recommendation(s);
     5. FEC staff person with responsibility to implement each task; and
     6. expected completion dates.

 Once management drafts the CAP, the OIG then reviews their CAP and provides comments to
 management regarding the sufficiency of their planned corrective actions to address the OIG’s
 findings.

 Management reviews the OIG’s comments, finalizes the CAP, and then provides the final
 CAP to the Commission with a courtesy copy to the OIG.



Office of Inspector General’s Review of Outstanding Recommendations as of June 2014   11 | P a g e
 FEC Directive 50 requires management to:

“(3) Conduct regular meetings with the Inspector General throughout the year to follow-up on
outstanding findings and recommendations, and include reports of these meetings in the written
corrective action plan and semi-annual reports required to be presented to the Commission…;”




Office of Inspector General’s Review of Outstanding Recommendations as of June 2014   12 | P a g e
                                                                             APPENDIX A



                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:           Alec Palmer
              Staff Director/Chief Information Officer

FROM:         Lynne A. McFarland
              Inspector General

SUBJECT:      Risk Acceptance Statement: December 2013 Review of Outstanding
              Recommendations Report

DATE:         February 10, 2014

The Office of Inspector General (OIG) is finalizing the December 2013 Review of
Outstanding Recommendations Report to be released February 2014. As you know, the
OIG’s outstanding recommendations report details the results of the OIG’s follow-up
reviews for audit and inspections that have outstanding recommendations for six months
or more.

As of December 2013, the Audit of the FEC’s Property Management Controls has several
recommendations that have been outstanding for over three years. The OIG has reported
on our concern with the lack of progress from ITD management since June 2012, and our
soon to be released report on outstanding recommendations reiterates the OIG’s concern.
The audit follow-up official has stated during OIG follow-up reviews that no further
corrective actions will be implemented to address the remaining recommendations and
management considers the recommendations closed. Therefore, the OIG’s December
2013 Review of Outstanding Recommendations Report is requesting a written statement
from the Staff Director accepting the risk of the outstanding recommendations in order
for the OIG to officially close the open recommendations. A list of the outstanding
recommendations, and the risks associated with not implementing the recommendations,
is attached with this memo and will also be included in the final report.

In addition, the OIG is aware that ITD is in the process of replacing the Blackberry
devices with iPhones. The OIG would like to note that the outstanding recommendations
are applicable to the iPhone and any other cellular phone device the agency may procure.
Based on the OIG’s knowledge of the agency’s lack of controls in this area, the OIG
believes the roll-out of the new iPhone devices would be the opportune time for
management to implement the remaining outstanding recommendations to improve the
agency’s controls.
The OIG is requesting a written statement from the Staff Director by March 3, 2014 in
response to accepting the risk of the outstanding recommendations for the Audit of the
Property Management Controls in order for the OIG to properly plan for the next audit
follow-up review period. If you decide to implement one or more of the outstanding
recommendations, based on the risks outlined in this memorandum, please let me know
by March 3, 2014 so that I can schedule a review of the corrective action(s) at a future
date.

Thank you.

Attachment




                                            2
Management’s Acceptance of Risk for the Audit of the FEC’s Property Management
Controls Outstanding Recommendations

The Office of Inspector General is requesting a written statement from the Staff Director
in regards to the remaining open recommendations from the Audit of the FEC’s Property
Management Controls that are listed below. In order to close these recommendations and
conclude the follow-up process, the Staff Director should state that management will
accept the risk of not implementing the outstanding recommendations. Below are the
outstanding recommendations and their associated risks.

   1. Recommendation 1h: Document the ITD re-authorization process of PCD
      [personal communication device/Blackberry] users in ITD's Policy 58-4.4
           Risk: Waste of agency funding.
                  The re-authorization of PCD users is an internal control to help
                   ensure that staff provided a Blackberry continue to have a need for
                   the device. Staffs’ job responsibilities change over time, and their
                   need for a Blackberry can change. Therefore, it is important to
                   periodically review the staff assigned a Blackberry to make sure
                   the expenditure of funds for the Blackberry service is still required.
                   As ITD is the office with oversight of the Blackberry devices,
                   ITD’s refusal to periodically re-authorize the users means ITD may
                   be unaware if the agency is wasting funds on FEC personnel or
                   contractors who no longer have a business need for an FEC issued
                   Blackberry.

   2. Recommendation 1k: Provide the policies and procedures for the use of
      Blackberry devices to all users when issuing the Blackberry.
          Risk: Abuse of government property.
                 Blackberry devices issued to authorized users have the potential to
                    be misused (excessive personal use, downloading of unauthorized
                    applications, viewing prohibited information on a government
                    issued device, etc.) if users are not aware of polices and procedures
                    for using an FEC issued Blackberry.

   3. Recommendation 2a: All unassigned Blackberry devices should be suspended or
      service should be terminated if the device can not be immediately transferred to
      another user (no active spares kept in ITD). At the time of our inspection, ITD
      retained a minimum of 10 inactive spare devices (many of the spares were left
      active incurring monthly charges) and a spare Subscriber Identity Module (SIM)
      card (portable memory chip). If required, a device could be activated within 24
      hours.
           Risk: Fraud and no internal control.
                  In a prior audit follow-up, management stated that they have
                     decreased the number of spare devices on hand to three. Although
                     the OIG agrees that three spare devices is more reasonable than the
                     previous 10 spares, the OIG reviewed devices listed as unassigned
                     (spare) on the agency’s AT&T monthly bill and they showed
                     activity (in use) and were listed as assigned to FEC personnel on
                                           3
                   the inventory list. As a result, ITD is not maintaining accurate
                   records of the unassigned Blackberry devices. Because these
                   devices are not properly tracked, management runs the risk of
                   potential fraud (stolen devices, unauthorized activity) because ITD
                   does not maintain proper records of spare devices.

4. Recommendation 2f: Blackberry user information should be kept up to date and
   adjusted in a timely manner on the ITD master Blackberry listing and the AT&T
   Premier website for employee separations and new assignment of devices.
        Risk: Fraud and no internal control.
                Because these devices are not properly tracked, management runs
                   the risk of potential fraud (stolen devices) because ITD does not
                   maintain proper inventory records, and it’s likely these devices
                   would not be detected as missing.

5. Recommendation 2g: Management should educate Blackberry users of all features
   that incur additional cost to the agency, such as: roaming charges that result when
   employees place calls outside AT&T service areas; texting; directory assistance;
   unauthorized software, and voice use over the pooled plan limits.
        Risk: Waste of agency funding and abuse of government property.
                The agency is at risk of wasting funds on unauthorized device
                   features that cost additional money beyond the agency’s plan.
                   There is also potential for abuse by users in using their agency
                   issued devices for excessive personal use. Both instances have
                   been identified by the OIG and reported to management during the
                   initial audit and in prior follow-up reviews.

6. Recommendation 3: ITD should implement a form and process such as the NIST
   Sample Sanitization Validation form, to record sanitization (wiping) of devices,
   disposal and/or destruction, as appropriate.
        Risk: Data breaches and fraud.
               Old devices that are no longer in use run the risk of containing
                  sensitive information from emails/attachments if management has
                  no record that the device has been properly sanitized prior to
                  transferring the device as surplus to the General Services
                  Administration. In addition, if the device is to be destroyed and
                  there is no record of the destruction, there is a risk that the device
                  can be removed from the agency and used for personal use or
                  prohibited activity (selling an agency issued device).




                                          4
7. Recommendation 3e: Segregate the following program functions among three or
   more ITD staff: Purchasing/ordering and recording assets; Authorization for
   purchases, including devices received free under upgrade promotion; Receipt,
   storage, and distributing of assets; and Destruction or disposal of surplus PCDs.
        Risk: Waste of agency funds and fraud.
           Having one person to oversee all purchasing, recording, and storage
              responsibilities for Blackberry devices presents the risk of a) wasting
              agency funds on additional devices that are purchased for prohibited
              activity; b) abuse of agency devices being used as personal use; and c)
              creating fraudulent documentation and records to prevent the detection
              of prohibited activity of agency issued devices.




                                        5
APPENDIX B
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
